March 1, 2010

JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

SUBJECT: Audit Report – Highway Contract Route Transportation – Greater
         Chicago (Report Number NL-AR-10-003)

This report presents the results of our audit of the Greater Chicago mail processing
facilities’ transportation routes (Project Number 09XG028NL001). Our objectives were
to determine whether highway contract routes (HCRs) were effective and economical.
This audit was self-initiated and was performed in conjunction with an audit on the
efficiency of Cardiss Collins Processing and Distribution Center’s (P&DC) Postal
Vehicle Service (PVS) transportation, which was requested by the U.S. Postal Service’s
vice president, Network Operations. The report focuses on greater Chicago HCRs
controlled by the Great Lakes Area. See Appendix A for additional information about
this audit.

Conclusion

Great Lakes Area and local officials were not effectively managing HCR transportation
contracts as evidenced by some underutilized trips. This occurred because local
management was not continually reviewing requirements and adjusting schedules1 to
address changing work loads and reductions.

We determined the greater Chicago facilities could improve the effectiveness of
scheduled HCRs and save more than $3.3 million in contract costs and fuel over the
term of existing HCR contracts by canceling or modifying 68 trips. The Postal Service
could eliminate these trips without negatively affecting on-time service because trip mail
volume was low and mail could be consolidated on other trips. The reduction in
contracted surface transportation would also help achieve fuel consumption goals
outlined in the Postal Service’s National Energy Plan. See Appendix B for our detailed
analysis of this topic.




1
 Handbook M-22, Dispatch and Routing Policies, states that local management is responsible for working with area
offices to develop local networks composed of postal-owned and contracted transportation services to ensure
efficient and timely service to the processing and distribution service areas .
Highway Contract Route Transportation –                                  NL-AR-10-003
 Greater Chicago


We recommend the vice president, Great Lakes Area Operations:

1. Ensure Great Lakes Area managers follow prescribed highway contract procedures
   for making highway contracts effective and economical, including the continual
   monitoring and adjustment of trips based on need.

2. Verify the elimination of six trips from highway contracts identified during our audit
   fieldwork.

3. Eliminate 42 trips from highway contracts identified in our audit and already agreed
   to by local and area management.

4. Reassess an additional 20 trips from highway contracts identified in our audit, and
   cancel or modify the trips as indicated by the reassessment, or document the
   reasons for retaining the trips.

Management’s Comments

Management agreed with our findings and recommendations and stated that
opportunities exist for several sites in the Chicago metropolitan area to better utilize
HCR transportation. The Great Lakes Area did not agree with our estimated savings
and cited that ongoing mail processing changes precludes a total agreement on the final
intrametropolitan network structure. Additionally, management stated that contract
negotiations and actual implementation dates will also impact the actual savings. See
Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to all the recommendations and the corrective actions should
resolve the issues identified in the report. Regarding our estimated savings, we still
believe the amounts are valid based on our review of operations and data during the
period audited.

The OIG considers recommendations 1, 3, and 4 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                             2
Highway Contract Route Transportation-                                      NL-AR-10-003
 Greater Chicago



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, director,
Transportation, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Jordan M. Small
    Cynthia F. Mallonee
    Pamela S. Grooman
    Sally K. Haring




                                           3
Highway Contract Route Transportation-                                                    NL-AR-10-003
 Greater Chicago



                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Postal Service transportation includes nationwide network transportation between cities
and major facilities (such as P&DCs) and delivery transportation between local
post offices and neighborhood delivery and pickup points. The Postal Service uses two
types of surface transportation to move mail to and from Postal Service facilities. These
include PVS transportation using Postal Service owned vehicles and contracted
transportation with private contractors known as HCR transportation. Individual Postal
Service areas control the HCRs, and Postal Service transportation managers at the
area and local levels are responsible for continually reviewing these routes to balance
on-time service standards with costs. The Postal Service spends about $2.4 billion
annually on HCRs.




                             Highway Contract Route traveling on a
                                 greater Chicago, IL, interstate.
                               Picture taken September 15, 2009.


OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine whether the HCRs are effective and
economical. This report focuses on routes under the Great Lakes Area’s control.

This audit was self-initiated and was performed in conjunction with an audit of the
efficiency of Cardiss Collins P&DC’s PVS transportation, which was requested by the
Postal Service’s vice president, Network Operations. During our work, we audited 11
Greater Chicago facilities,2 visited two of those facilities, and interviewed officials at the


2
 These facilities were xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                   4
Highway Contract Route Transportation-                                          NL-AR-10-003
 Greater Chicago


Great Lakes Area. We reviewed relevant Postal Service policies and procedures,
interviewed managers and employees, and observed and photographed operations.
We also evaluated mail volume and the type of mail carried, and considered on-time
service standards.

Using Postal Service computer-generated data, we identified 2,770 trips operated under
202 Great Lakes Area contracts that had at least one service point within the greater
Chicago facilities. We did not audit or comprehensively validate the data; however, we
noted several control weaknesses that constrained our work. For example, some
computer files had missing records and inaccurate trailer load volumes. Even though
data limitations constrained our work, we were able to support our audit conclusions by
applying alternate audit procedures, including source document examination, and
discussion with appropriate officials.

We conducted this performance audit from July 2009 through March 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management throughout our audit and included their comments
where appropriate.

PRIOR AUDIT COVERAGE

This report is being issued in conjunction with our ongoing OIG audits on PVS
transportation at selected Postal Service facilities. Our recent PVS transportation audits
listed below identified opportunities to increase the effectiveness of scheduled PVS
transportation by eliminating or consolidating routes. Management agreed with our
recommendations in these audits. Our review of HCRs in this audit used the same
methodology and had comparable findings.

                                                           Final
                                                          Report      Monetary Impact
               Report Title              Report Number     Date         (in millions)
   Postal Vehicle Service
   Transportation Routes –
                                         NL-AR-09-006    7/20/2009               $5.4
   Philadelphia Processing and
   Distribution Center
   Postal Vehicle Service
   Transportation Routes –
                                         NL-AR-10-002    12/28/2009              18.3
   Cardiss Collins Processing and
   Distribution Center
                  Total                                                         $23.7




                                               5
Highway Contract Route Transportation-       NL-AR-10-003
 Greater Chicago




                                         6
Highway Contract Route Transportation-                                          NL-AR-10-003
 Greater Chicago



                            APPENDIX B: DETAILED ANALYSIS

Underutilized Trips in HCR

Great Lakes Area and local officials were not effectively managing HCR transportation
contracts as evidenced by some underutilized trips. Specifically, they could eliminate or
modify 68 trips from 12 highway contracts in the Great Lakes Area without negatively
impacting service. This occurred because management was not continually reviewing
requirements and adjusting schedules as required by Postal Service policy to address
changing work loads and reductions due, in part, to economic conditions. See
Appendix C for a listing of contracts, related trips, and miles recommended for
reduction, along with associated monetary impacts.

According to policy, local managers are responsible for working with area offices to
develop local networks composed of postal-owned and contracted transportation
services to ensure efficient and timely service to the processing and distribution service
areas. As such, the greater Chicago facilities could improve the effectiveness of
scheduled HCRs and save more than $3.3 million in contract costs and fuel over the
term of existing HCR contracts by canceling or modifying 68 trips. The Postal Service
could eliminate these trips without negatively affecting on-time service because trip mail
volume was low and mail could be consolidated on other trips. The reduction in
contracted surface transportation would also help achieve fuel consumption goals
outlined in the Postal Service’s National Energy Plan by reducing fuel use for contracted
transportation by about 640,000 miles annually. See Appendix C for our detailed
analysis of this topic.

Throughout our audit, we coordinated proposed trip changes with Great Lakes Area
transportation managers. The managers reviewed each proposal in conjunction with
their own assessment of operational requirements, and we discussed any differences.
Management agreed to 48 of 68 trips we identified as unnecessary and the
Postal Service already initiated the elimination of six trips. In addition, we believe the
remaining 20 trips could be eliminated without jeopardizing on-time performance.




                                             7
Highway Contract Route Transportation-                                                             NL-AR-10-003
 Greater Chicago



                    APPENDIX C: RECOMMENDED TRIP REDUCTIONS AND
                              RELATED MONETARY IMPACT


            Recommended         Contract     Number          Annual Miles
              Reduction         Number       of Trips         Reduced          Estimated Savings
                                  601BK              2               4,026                  $42,922
            Postal Initiated
                                   601L1             4               9,519                   76,935
                                   60046             2               9,840                   76,044
                                   60133            12              20,964                  257,715
                                   60430             2              12,123                   60,943
                                   600L1            14              43,830                  645,892
            Agreed
                                  600M1              6              23,997                  300,511
                                   601L1             2               2,629                   21,250
                                   601L5             2              38,200                  124,266
                                  606CK              2              20,267                  228,793
                                   60046             2               9,212                   71,191
                                   60430             2              12,123                   60,943
                                   600L1             4               6,216                   92,567
                                   600L7             2              11,976                   50,182
            Disagreed
                                  600M1              2               8,444                  105,748
                                  600M3              2              38,195                  210,071
                                   601L1             4              21,341                  172,484
                                  607Y0              2             350,060                  726,794
                                                                                                    3
            Total                                   68             642,960              $3,325,251


The standard OIG methodology for calculating the months remaining in the contract is
to use actual months remaining as of a specified date. But if the months remaining are
less than 1 year, the number of months in the renewal is used.




3
  This $3,325,251 will be classified as funds put to better use (funds that could be used more efficiently by
implementing recommended actions), and consists of $2,768,291 in contract savings and $556,960 in fuel savings.




                                                         8
Highway Contract Route Transportation-                     NL-AR-10-003
 Greater Chicago


                       APPENDIX D. MANAGEMENT’S COMMENTS




                                         9
Highway Contract Route Transportation-        NL-AR-10-003
 Greater Chicago




                                         10
